IN THE SUPREME COURT OF THE UNITED STATES

JOAQUIN MARIO CIPRIANO-ORTEGA,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Joaquin Mario Cipriano-Ortega, asks for leave to file a Petition for Writ of
Certiorari to the U.S. Court of Appeals for the Ninth Circuit without pre-payment of
fees or costs and to proceed in forma pauperis. The Petitioner was represented by
counsel appointed pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal
to the Court of Appeals for the Ninth Circuit.
Respectfully submitted,

July 8, 2020

~kr

Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467

Attorneys for Petitioner

